                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: Al2050029                                                                      Page 1 of 1


          We received an anonymous allegation that an awarded NSF proposal 1 authored by one PI was
          plagiarized from a similar but rejected proposaf authored by another PI.

          Further analysis revealed that the two Pis are collaborators; the PI who authored each proposal
          exists as coPI on the other proposal. This case is closed with no further action taken.




          1
              [Redacted]
          2
              [Redacted]




NSF OlG Fonn 2 (11 /02)
